IN THE SUPREME COURT OF THE UNITED STATES
TERRILL BERNARD WEATHERSPOON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Terrill Bernard Weatherspoon, asks leave to file the
accompanying Petition for Writ of Certiorari to the United States Court of Appeals
for the Fourth Circuit without payment of costs and to proceed in forma pauperis
and in support thereof states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

The undersigned attorney was appointed by the Fourth Circuit Court
of Appeals on May 8, 2019 to represent petitioner on his appeal to the
Fourth Circuit Court of Appeals in 19-4324.

This the 13th day of October, 2020.
Respectfully Submitted,
Terrill Bernard Weatherspoon
/s/ George E. Crump, III
George E. Crump, III
Counsel of Record, NCSB #7676
PO Box 1523
Rockingham, NC 28380
(910) 997-5544
georgecrump@bellsouth.net

